Audit Report




OIG-07-021
Audit of the Office of Thrift Supervision’s Fiscal Years
2006 and 2005 Financial Statements


December 13, 2006




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 13, 2006


            MEMORANDUM FOR JOHN M. REICH, DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                   Joel A. Grover
                                    Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                Audit of the Office of Thrift Supervision’s Fiscal Years
                                    2006 and 2005 Financial Statements


            I am pleased to transmit the attached audited Office of Thrift Supervision (OTS)
            financial statements for fiscal years 2006 and 2005. Under a contract monitored
            by the Office of Inspector General, Deva & Associates, P.C. (DEVA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OTS as of September 30, 2006 and 2005, and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 06-03, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by DEVA, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance with Laws and Regulations.

            In its audit, DEVA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,
                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
DEVA also issued a management letter dated October 31, 2006, discussing other
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed DEVA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. DEVA is responsible for
the attached auditors’ reports dated October 31, 2006 and the conclusions
expressed in the reports. However, our review disclosed no instances where DEVA
did not comply, in all material respects, with generally accepted government
auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
     2006
Financial Report




Office of Thrift
 Supervision
                      Table of Contents
                                                        Page


Independent Auditors’ Report …………….….………..…..            1

Financial Statements ………………..………………..….…..               2


Notes to Financial Statements ……..…………...……….…           5


Independent Auditors’ Report on Internal Control Over
      Financial Reporting …………………………….….....             16


Independent Auditors’ Report on Compliance with
      Laws and Regulations ….………………….…….…..              17
Deva & Associates, P.C.
                                                 1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                      (301) 610-5600 • FAX (301) 610-9910




                            INDEPENDENT AUDITORS' REPORT



 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the accompanying statements of financial position of the U.S. Department of
 the Treasury, Office of Thrift Supervision (OTS) as of September 30, 2006 and 2005, and the
 related statements of operations and changes in net position, and cash flows for the years then
 ended. These financial statements are the responsibility of OTS’ management. Our
 responsibility is to express an opinion on these financial statements based on our audit.

 We conducted our audits in accordance with auditing standards generally accepted in the United
 States of America; the standards applicable to financial audits contained in Government Auditing
 Standards, issued by the Comptroller General of the United States; and applicable Office of
 Management and Budget (OMB) guidance for audits of federal financial statements. Those
 standards require that we plan and perform the audits to obtain reasonable assurance about
 whether the financial statements are free of material misstatement. An audit includes examining,
 on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
 audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that
 our audits provide a reasonable basis for our opinion.

 In our opinion, the financial statements referred to above present fairly, in all material respects,
 the financial position of OTS as of September 30, 2006 and 2005, and the results of its
 operations and its cash flows for the years then ended in conformity with accounting principles
 generally accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued a report dated October
 31, 2006, on our consideration of OTS’ internal control over financial reporting and a report
 dated October 31, 2006, on its compliance with laws and regulations. These reports are an
 integral part of an audit performed in accordance with Government Auditing Standards and
 should be read in conjunction with this report in considering the results of our audit.




                                               Certified Public Accountants

 October 31, 2006
                                                  1
                    UNITED STATES DEPARTMENT OF THE TREASURY
                           OFFICE OF THRIFT SUPERVISION
                        STATEMENTS OF FINANCIAL POSITION
                                    (In thousands)




                                                                                 September 30
                                                                          2006                  2005
Assets

   Cash and cash equivalents (Note 3)                                $    155,731       $   110,238
   Accrued interest receivable                                              1,133             1,178
   Accounts receivable                                                      1,586             1,147
   Investments held to maturity (Note 4)                                  123,966           125,439
   Property and equipment, net (Note 5)                                    32,811            32,929
   Other assets                                                             1,109               869

         Total Assets                                                $    316,336       $   271,800

Liabilities and Net Position

Liabilities:

   Accounts payable                                                  $      1,627       $        1,109
   Accrued annual leave                                                    10,656                9,920
   Workers' compensation liability (Note 6)                                 3,717                3,990
   Deferred compensation liability (Note 7)                                   575                  573
   Deferred assessment revenue                                             55,821               50,126
   Deferred rent credit                                                     2,071                2,084
   Post-retirement benefit liability (Note 8)                              15,626               14,453
   Other retirement plan liabilities (Note 9)                               9,153               16,142
   Payroll, benefits, and withholding                                      12,358                5,428
   Other accrued liabilities (Note 10)                                      2,557                2,851

         Total Liabilities                                           $    114,161       $   106,676

Net Position:

   Assumed capital (Note 11)                                         $     41,037       $    41,037
   Retained earnings (Note 11)                                            161,138           124,087

         Total Net Position                                          $    202,175           165,124

         Total Liabilities and Net Position                          $    316,336       $   271,800




   The accompanying notes are an integral part of these financial statements.


                                                2
                  UNITED STATES DEPARTMENT OF THE TREASURY
                         OFFICE OF THRIFT SUPERVISION
             STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                  (In thousands)




                                                                              For the Years Ended
                                                                                 September 30
                                                                             2006             2005
Revenues

   Industry assessments                                                 $   212,290      $   187,419
   Examination, application, and security filing fees                         9,330            7,533
   Interest                                                                   8,841            5,709
   Rental income (Note 12)                                                    4,818            5,114
   Other                                                                      1,269            1,079

   Total Revenues                                                       $   236,548      $   206,854

Expenses

   Personnel compensation                                               $   105,820      $    94,204
   Benefits (Note 9)                                                         57,194           59,701
   Rent, communication, and utilities (Note 13)                               6,429            6,863
   Travel and transportation                                                 12,940           10,878
   Services                                                                   5,948            4,785
   Data processing                                                            1,370            1,594
   Building expenditures                                                      3,401            4,052
   Office equipment and software                                              2,131            1,694
   Miscellaneous                                                              2,350            1,890
   Depreciation and amortization                                              1,914            1,773

   Total Expenses                                                       $   199,497      $   187,434

Excess of Revenues over Expenses                                        $    37,051      $    19,420

Net Position, Beginning Balance                                             165,124          145,704

Net Position, Ending Balance                                            $   202,175      $   165,124




     The accompanying notes are an integral part of these financial statements.




                                                        3
                      UNITED STATES DEPARTMENT OF THE TREASURY
                             OFFICE OF THRIFT SUPERVISION
                              STATEMENTS OF CASH FLOWS
                                      (In thousands)




                                                                                For the Years Ended
                                                                                   September 30
                                                                               2006              2005
CASH FLOWS FROM OPERATING ACTIVITIES

Excess of revenues over expenses                                          $     37,051      $    19,420

Adjustments to reconcile excess of revenues over expenses to
 net cash provided by operating activities:
     Amortization of net bond premium                                               (4)            214
      Depreciation and amortization                                              1,914            1,773
      Gain on disposed assets                                                      (76)                 (1)

Changes in assets and liabilities:
     Increase in receivables                                                      (394)            (884)
     Increase in other assets                                                     (240)            (180)
     Increase in accounts payable                                                  518              693
     Increase in other liabilities                                               6,967           17,649

      Net cash provided by operating activities                           $     45,736      $    38,684

CASH FLOWS FROM INVESTING ACTIVITIES

      Purchases of investments                                            $    (28,638)     $   (14,859)
      Maturities of investments                                                 30,115              -
      Proceeds from sale of equipment                                               78
      Purchases of equipment                                                    (1,798)             -
      Capitalized leasehold improvements                                           -                    4
      Insurance proceeds received                                                  -                    2

      Net cash used in investing activities                               $       (243)     $   (14,853)

Net cash provided by operating and investing activities                   $     45,493      $    23,831

Cash and cash equivalents, beginning of year                                   110,238           86,407

Cash and cash equivalents, end of year                                    $    155,731      $   110,238




  The accompanying notes are an integral part of these financial statements.



                                                    4
                            UNITED STATES DEPARTMENT OF THE TREASURY
                                   OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions.

FIRREA provides that OTS assess the institutions it regulates to recapture operating costs. Assessments are
collected semiannually on January 31 and July 31.


2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, however, that financial statements prepared based upon accounting standards published by the FASB
may also be regarded as being in accordance with generally accepted accounting principles for those federal entities
such as OTS that have issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, OTS financial statements are presented in accordance with accounting standards
published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested overnight
by Treasury on behalf of OTS.

INVESTMENTS HELD TO MATURITY

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to
classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity. All
of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.




                                                         5
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


2. SIGNIFICANT ACCOUNTING POLICIES (continued)

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Postretirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the estimated
costs that will be paid after retirement is being accrued by charges to expense over the employees’ active service
periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the transition
amount (unfunded cost at January 1, 1993) over twenty (20) years beginning in 1993 in accordance with the option
available in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims and as
OTS paid premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994, OTS
agreed to pay a one-time fee to OPM in consideration of OPM assuming the health care portion of the post-
retirement plan liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets in excess of $50 thousand and bulk
purchases in excess of $250 thousand are capitalized. Aggregate purchases of multiple items directly related to a
specific project (for example, leasehold improvements) are capitalized when the total cost exceeds a minimum
threshold of $250 thousand, and the annual amortization amount exceeds $50 thousand. The building owned by
OTS is being depreciated over 50 years. The agency’s capitalized furniture, fixtures and equipment are depreciated
over 3 to 5 years. Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.

RECLASSIFICATIONS

Certain prior year amounts have been reclassified to conform to the fiscal year 2006 presentation.




                                                        6
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


3. CASH AND CASH EQUIVALENTS

The following table summarizes the balances of cash and cash equivalents (in thousands):

                                                        September 30
                                                      2006         2005

         Cash                                   $       1,020 $       1,089
         Overnight investment with Treasury           154,711       109,149
         Total cash and cash equivalents        $     155,731 $     110,238

Interest earned on cash and overnight investments totaled $4.8 million and $2.0 million for 2006 and 2005,
respectively.


4. INVESTMENTS HELD TO MATURITY

Investment securities held at September 30, 2006 and 2005 are marketable Treasury securities maturing through
February 2010. The amortized cost and market value of these securities are summarized as follows (in thousands):

                                                                                  September 30
                                                                               2006          2005

         Face value                                                       $     125,000 $       125,000
         Unamortized (discount)/premium, net                                     (1,034)            439

         Book value of investments held to maturity                       $     123,966 $       125,439

         Market value                                                     $     122,183 $       123,091

Effective interest yields range from 2.21 percent to 4.83 percent. Interest earned on these investments totaled $4.0
million and $3.7 million for 2006 and 2005, respectively.




                                                        7
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS


5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                                 September 30
                                                                              2006          2005

        Land                                                              $     7,101 $         7,101
        Building                                                               49,188          49,188
        Furniture, fixtures, and equipment                                      3,850           3,662
        Leasehold Improvements                                                  1,852           1,852
         Total cost                                                       $    61,991 $        61,803

        Accumulated depreciation, building                                $   (26,546) $     (25,493)
        Accumulated depreciation, furniture, fixtures, and equipment           (2,134)        (3,021)
        Accumulated amortization, leasehold improvements                         (500)          (360)
         Total accumulated depreciation and amortization                  $   (29,180) $     (28,874)

        Property and equipment, net                                       $     32,811 $       32,929


6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit
claims incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board,
are administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of
future workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using
OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $3.7 million and $4.0 million as of
September 30, 2006 and September 30, 2005, respectively. Actual FECA expenses currently payable are included
in other accrued liabilities and totaled $741 thousand and $694 thousand as of September 30, 2006 and September
30, 2005, respectively. Changes in the actuarial liability and payments related to FECA are reflected as reductions
or increases in benefits expense in the appropriate year.




                                                       8
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS


7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Under the assumed plans, benefits were intended to be
provided by cash value life insurance policies issued by Mutual Benefit Life; Mutual Benefit Life went into
rehabilitation on July 16, 1991. OTS surrendered all but two of these policies in 1994 and retained the full cash
values on deposit with Mutual Benefit Life. Under the rehabilitation plan, withdrawal of cash values prior to
December 31, 1999, was restricted and subject to substantial withdrawal penalties. In 2003, OTS elected to receive
the cash values for surrendered policies and invest the funds with Treasury. The cash value of the one remaining
policy, included in other assets in the accompanying Statements of Financial Position, is approximately $13
thousand in 2006 and $11 thousand in 2005. Plan payments are funded by OTS.


8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency funds
benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based on
certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over twenty (20) years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and who
were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits Program (FEHB) for
coverage effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM
constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million
in 1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize
over 20 years in 1993. The post-retirement liability of $15.6 million in the Statements of Financial Position at
September 30, 2006 and $14.5 million at September 30, 2005 represents OTS’s recognized portion of the remaining
liability for participants’ future life insurance benefits.




                                                       9
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


8. POST-RETIREMENT BENEFIT LIABILITY (continued)

Net periodic post-retirement benefit cost for life insurance provisions under the Plan included the following
components in 2006 and 2005 (in thousands):

                                                                                     For the Years Ended
                                                                                        September 30
                                                                                     2006           2005

         Service cost - current year                                           $          546 $             220
         Interest on accumulated post-retirement benefit obligation                       931               993
         Amortization of transition obligation                                            253               253

         Net post-retirement benefit expense                                   $        1,730 $           1,466

         The following table sets forth the Plan’s funded status reconciled with the liability recognized in the
         Statements of Financial Position (in thousands):
                                                                                         September 30
                                                                                     2006              2005
         Accumulated post-retirement benefit obligation:
               Retirees                                                        $         9,852 $           9,147
               Other fully eligible participants                                             71               46
               Other active participants                                                 8,617             7,954
         Accumulated post-retirement benefit obligation                                 18,540           17,147

         Unrecognized transition obligation                                            (1,579)          (1,832)
         Unrecognized net gain or (loss)                                               (1,335)            (862)

         Total post-retirement benefit liability                               $       15,626 $         14,453

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations at
September 30, 2006 and September 30, 2005 were 5.42 percent and 5.52 percent, respectively.


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7.0 percent of regular earnings. OTS also contributed 7.0 percent of regular earnings during 2006 and
2005 for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this
employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.




                                                       10
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

For employees with more than five years of (not necessarily continuous) service, hired on or after January 1, 1984,
OTS withholds 0.8 percent of regular earnings, in addition to Social Security withholding. OTS also contributed
7.0 percent of regular earnings in 2006 and 2005, respectively, for each employee in this tier. When regular
earnings exceed the FICA maximum wages, employees covered under this tier of CSRS are required to have 7.0
percent of their earnings withheld. This employee group will receive retirement benefits from both CSRS and the
Social Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
five years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2006 and 2005.
The agency contributed 11.2 percent and 10.7 percent of regular earnings in 2006 and 2005, respectively, for FERS
employees. This group of employees will receive benefits from FERS as well as the Social Security System, to
which they concurrently contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss. The estimated FIRF plan contributions for the plan years beginning July 1, 2006 and July 1, 2005 consist of
two components: (1) Normal Cost and (2) amortization of the retirement plan’s Unfunded Accrued Liability (UAL)
for the plan year. The estimated UAL totaled $61.4 million and $61.5 million for the plan years beginning July 1,
2006 and July 1, 2005, respectively. The plan year UAL is amortized over approximately five years in
conformance with IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year minimum required contribution from the
FIRF plan administrator. OTS recognizes one-fourth of the required contribution in current fiscal year expense and
the remainder in the next fiscal year. For the fourth quarter of fiscal year 2005, OTS recognized $6.8 million of the
$27.3 million contribution as expense, and the $20.5 million remainder was recognized in fiscal 2006. The
minimum required contribution for the plan year begun July 1, 2006 is $30.6 million. Accordingly, OTS recognized
$7.6 million in expense for the fourth quarter of fiscal year 2006, and this amount is included in other retirement
plan liabilities.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to
accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.

In addition to the retirement plans described above, OTS employees have the option of participating in retirement
savings plans. Employees covered under CSRS or FERS may participate in the OPM-sponsored Thrift Savings
Plan (TSP), a plan with characteristics similar to a private-sector 401(k) plan. CSRS and FERS covered employees
may also participate in the Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra.
Employees covered under FIRF may participate in FITP only. All employees may contribute up to 15 percent of
their earnings to the plans. OTS makes matching contributions of up to 7 percent to the plans for FERS and FIRF
participants and up to 2 percent for CSRS participants.




                                                        11
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

In 2004, OTS implemented a new Employee Savings Plan (ESP). The ESP was administered by Pentegra and had
characteristics similar to the FITP 401(k) plan described above, except all contributions were funded by OTS and
vesting was scheduled to begin in year four of participation in the plan. On September 29, 2006, the ESP was
terminated which resulted in immediate vesting for the plan participants. To complete the termination, the plan
administrator will distribute participant account balances in accordance with the plan provisions.

For the plan year ended September 30, 2006, OTS did not contribute to the ESP. In the plan years ended September
30, 2005 and 2004, contributions totaling $748 thousand and $720 thousand, respectively, caused some employees
to exceed the Internal Revenue Code Section 415 limits. Excess contributions are removed from the affected
employee’s ESP accounts. OTS established a nonqualified retirement savings plan (NQRS) to cover the excess
contribution amounts removed from employee accounts due to the IRS limits. The total nonqualified plan liability
of $1.5 million includes earnings at 2.0 percent for the year ended September 30, 2006.

The liabilities for all OTS plans, included in other retirement plan liabilities in the accompanying Statements of
Financial Position, are as follows (in thousands):

                                    September 30
                                   2006      2005

         FIRF                 $      7,649 $     6,842
         ESP                             -       8,532
         NQRS                        1,504         768

             Total            $      9,153 $   16,142


The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations and
Changes in Net Position, are as follows (in thousands):

                                  For the Years Ended
                                     September 30
                                   2006         2005

         CSRS                 $       931 $       922
         FERS                       3,510       2,878
         TSP                        1,370       1,180
         FITP                       4,646       4,508
         FIRF                      28,174      25,137
         ESP                         (61)       8,530
         NQRS                         735         768

               Total          $    39,305 $    43,923




                                                         12
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


10. OTHER ACCRUED LIABILITIES

The following table summarizes the other accrued liabilities (in thousands):

                                                       September 30
                                                    2006          2005

         Post-employment benefits payable      $         749 $            694
         Goods and services                            1,808            2,157

             Total other accrued liabilities   $       2,557 $          2,851


11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital in the Net
Position section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of
September 30, 2006 and 2005.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of foreseeable but rare events.
Foreseeable but rare events are beyond the control of OTS, such as a major change in the thrift industry. The
special reserve supplements revenue from assessments and other sources that are made available to fund OTS’s
annual budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or
unbudgeted and unanticipated requirements or opportunities. Undelivered orders represents the amount of goods
and services ordered that have not been actually or constructively received and for which amounts have not been
prepaid or advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                                       September 30
                                                    2006          2005

              Contingency reserve              $     121,496 $        95,120
              Special reserve                         35,000          25,000
              Undelivered orders                       4,642           3,967

                   Total retained earnings     $     161,138 $       124,087


12. RENTAL INCOME

OTS leases a portion of its building as office and retail space under noncancellable operating leases expiring at
various dates through 2021. Some of the leases provide renewal options. The leases provide for annual base rent
and additional rents for building operating expenses. Some leases provide for fixed future increases in rents over
the term of the lease.




                                                       13
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


12. RENTAL INCOME (continued)

The future minimum rentals to be received under noncancellable operating lease arrangements, not including
renewals, are as follows (in thousands):

         Years ending
         September 30               Total

         2007                  $     4,506
         2008                        4,678
         2009                          939
         2010                          470
         2011                          420
         Thereafter                  2,775

                               $    13,788

Rental income totaled $4.8 million and $5.1 million for 2006 and 2005, respectively.


13. LEASE COMMITMENTS

OTS conducts most of its regional operations in leased facilities under noncancellable operating leases expiring at
various dates through 2020. Many of the leases contain a provision to renew at the end of the initial term for an
additional one to ten years. The rental payments are based on a minimum rental plus a proportional share of
building operating expenses and taxes.

Some of the operating leases provide for rental escalations or stated annual rental increases in the amount of base
rent over the lives of the leases. The accompanying comparative Statements of Operations and Changes in Net
Position reflect rent expense on a straight-line basis over the lives of the leases.

The minimum rental commitments under noncancellable operating leases are as follows (in thousands):

         Years ending
         September 30                Total

         2007                   $     3,601
         2008                         3,610
         2009                         3,467
         2010                         3,367
         2011                         3,054
         Thereafter                  10,227

                  Total         $    27,326

Rent expense under noncancellable operating leases totaled $3.6 million and $4.4 million for 2006 and 2005,
respectively.




                                                       14
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


14. COMMITMENTS AND CONTINGENCIES

There are approximately thirty lawsuits pending against the United States in the Court of Federal Claims and the
Court of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of
supervisory goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment of
FIRREA. The U.S. Department of Justice (Department of Justice) is defending these cases on behalf of the United
States, and OTS is supporting the Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any
judgment issued by the Court of Federal Claims must be paid from appropriated funds. Therefore, OTS funds,
which are non-appropriated, cannot be used to pay judgments in these cases.

OTS is also supporting the Department of Justice in its defense of five “tax benefits” lawsuits pending against the
United States in the Court of Federal Claims. These cases concern Congress’s elimination of tax benefits that it
granted in connection with certain thrift acquisitions in the late 1980s. OTS funds cannot be used to pay judgments
in these cases because, as noted above, 28 U.S.C. § 2517 requires that any judgment issued by the Court of Federal
Claims must be paid from appropriated funds, and OTS funds are non-appropriated.

OTS is also defending or supporting the Department of Justice in defending three other lawsuits in which the
plaintiffs seek damages in excess of $200,000. In one of these cases, all claims (including claims against OTS and
certain current and former OTS employees) have been dismissed; this dismissal was affirmed on appeal and the
claimants have filed a petition for a writ of certiorari with the U.S. Supreme Court. An unfavorable outcome
appears unlikely at this point, but if there is a final judgment against one or more of the employees, OTS may be
called upon to indemnify such employee(s) under the agency’s indemnification policy, which provides for
indemnification under certain specified conditions. In the other two cases, one of which asserts claims against OTS
and individual OTS employees, OTS believes it is more likely than not to succeed and does not anticipate any loss.

In addition, there are three preliminary matters that have not yet reached the point of litigation. In one of those
matters, the claimant has submitted an administrative claim for damages. In the second matter, no claim has yet
been submitted. Given the preliminary stage of both of these matters, OTS is not presently able to estimate either
the likelihood of success or any potential loss that may ultimately result if litigation ensues from either matter. In
the third matter, OTS believes it is more likely than not to succeed if litigation should ensue and does not anticipate
any loss.




                                                        15
Deva & Associates, P.C.
                                                1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                     (301) 610-5600 • FAX (301) 610-9910



                      INDEPENDENT AUDITORS' REPORT ON
                 INTERNAL CONTROL OVER FINANCIAL REPORTING


 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2006, and have issued our
 report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
 standards generally accepted in the United States of America; the standards applicable to
 financial audits contained in Government Auditing Standards, issued by the Comptroller General
 of the United States; and applicable Office of Management and Budget (OMB) guidance for
 audits of federal financial statements.

 In planning and performing our audit, we considered OTS’ internal control over financial
 reporting in order to determine our auditing procedures for the purpose of expressing our opinion
 on the financial statements and not to provide assurance on the internal control over financial
 reporting. Consequently, we do not provide an opinion on internal control over financial
 reporting. Our consideration of the internal control over financial reporting would not
 necessarily disclose all matters in the internal control over financial reporting that might be
 material weaknesses under standards established by the American Institute of Certified Public
 Accountants. A material weakness is a condition in which the design or operation of one or
 more of the internal control components does not reduce to a relatively low level the risk that
 misstatements caused by error or fraud in amounts that would be material in relation to the
 financial statements being audited may occur and not be detected within a timely period by
 employees in the normal course of performing their assigned functions. However, we noted no
 matters involving the internal control over financial reporting and its operation that we consider
 to be material weaknesses as defined above.

 However, we noted certain matters involving the internal control and its operation that we have
 reported to the management of OTS in a separate letter dated October 31, 2006.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB and Congress and is not intended to
 be and should not be used by anyone other than those specified parties.




                                              Certified Public Accountants
 October 31, 2006
                                                16
Deva & Associates, P.C.
                                               1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                    (301) 610-5600 • FAX (301) 610-9910



                INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        WITH LAWS AND REGULATIONS


 To the Inspector General,
 U.S. Department of the Treasury

 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2006, and have issued our
 report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
 standards generally accepted in the United States of America; the standards applicable to
 financial audits contained in Government Auditing Standards, issued by the Comptroller General
 of the United States; and applicable Office of Management and Budget (OMB) guidance for
 audits of federal financial statements. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material
 misstatement.

 As part of obtaining reasonable assurance about whether OTS’ financial statements are free of
 material misstatement, we performed tests of its compliance with certain provisions of applicable
 laws and regulations, noncompliance with which could have a direct material effect on the
 determination of financial statement amounts. However, providing an opinion on compliance
 with those provisions was not an objective of our audit, and accordingly, we do not express such
 an opinion. The results of our tests disclosed no instances of noncompliance that are required to
 be reported under Government Auditing Standards.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB and Congress and is not intended to
 be and should not be used by anyone other than those specified parties.




                                             Certified Public Accountants

 October 31, 2006




                                                17
